   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                        Washington, D.C. 20201




October 27, 2010

TO:            Mary Wakefield, Ph.D., R.N.
               Administrator
               Health Resources and Services Administration


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                and Information Technology Audits


SUBJECT:       Results of Limited Scope Review of Center for Health and Wellness, Inc.
               (A-07-10-03146)


The attached final report provides the results of our review of Center for Health and Wellness,
Inc. This review is part of an ongoing series of reviews performed by the Office of Inspector
General (OIG) to provide oversight of funds provided by the American Recovery and
Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act).

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-07-10-03146
in all correspondence.


Attachment
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




        RESULTS OF
  LIMITED SCOPE REVIEW OF
  CENTER FOR HEALTH AND
       WELLNESS, INC.




                      Daniel R. Levinson
                       Inspector General

                        October 2010
                        A-07-10-03146
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services, the Health Resources and Services
Administration (HRSA) administers the Health Center Program. The HRSA health centers are
community-based and patient-directed organizations that serve populations with limited access to
health care.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points (NAP), increased demand for services (IDS), facilities
investment program, and capital improvement program (CIP). Recovery Act grants were
provided to both new and existing health centers; moreover, a center was permitted to receive
more than one type of grant.

The Center for Health and Wellness, Inc. (CHW) began operations in July 1998 as a primary
care facility specifically designed to meet the needs of the northeast Wichita, Kansas,
community. CHW serves a large number of uninsured and underinsured families and operates
programs in several areas such as hypertension, diabetes, cancer awareness, substance abuse,
anger management, prenatal care, and dental health services.

On December 16, 2007, CHW applied for NAP grant funding in the amount of $1.95 million
(cumulative over a three-year period) to expand health care services. According to CHW’s NAP
grant application, the funding would enable CHW to add three additional medical providers, add
six new exam rooms, expand the prenatal clinic, expand the behavioral health program, and
expand its oral health services. On August 20, 2009, HRSA awarded CHW a Recovery Act
NAP grant in the amount of $1.3 million.

On March 16, 2009, CHW applied for Recovery Act IDS grant funding in the amount of
$100,000 to expand existing services. According to CHW’s IDS grant application, the funding
would also enable CHW to hire a dental hygienist for one day each week and to provide
additional staff members for billing and human resources to maintain administrative controls.



                                               i
On March 27, 2009, HRSA awarded CHW an IDS grant in the amount of $100,000. On
September 18, 2009, HRSA awarded CHW an additional $1,000 due to a formula revision that
increased the base allocation to $101,000.

On June 3, 2009, CHW applied for Recovery Act CIP grant funding in the amount of $250,000
for construction of the facility expansion. On June 25, 2009, HRSA awarded CHW a CIP grant
in the amount of $250,000.

OBJECTIVE

Our objective was to assess CHW’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.

RESULTS OF REVIEW

Based on our assessment, we believe CHW is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in CHW’s financial
management: lack of written cash management policies and procedures, to include policies and
procedures for adherence to Federal Deposit Insurance Corporation limits; lack of policies and
procedures governing reporting requirements mandated by the Recovery Act; inadequate
segregation of duties; and lack of adherence to inventory policies and procedures.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing CHW’s ability to account for and manage Federal funds and
to operate a community health center in accordance with Federal regulations.

AUDITEE COMMENTS

In written comments to our draft report, CHW concurred with our findings and recommendation.
CHW’s comments appear in their entirety as the appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              The Health Center Program .................................................................................1
              Center for Health and Wellness, Inc. ...................................................................1
              Requirements for Federal Grantees .....................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................2
               Objective ..............................................................................................................2
               Scope ....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATION...............................................................................4

          WEAKNESSES IN FINANCIAL MANAGEMENT .....................................................4
              Lack of Written Cash Management Policies and Procedures ..............................4
              Lack of Policies and Procedures Governing Reporting Requirements
                 Mandated by the American Recovery and Reinvestment Act of 2009 ...........5
              Inadequate Segregation of Duties ........................................................................5
              Lack of Adherence to Inventory Policies and Procedures ...................................6

          RECOMMENDATION ...................................................................................................7

APPENDIX

          AUDITEE COMMENTS




                                                                    iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104–299) consolidated the Health
Center Program under Section 330 of the Public Health Service Act (PHS Act), codified at 42
U.S.C. § 254(b). Pursuant to 42 U.S.C. § 254(b), the Health Center Program is a national
program designed to provide comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health & Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the Health Center Program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, and vulnerable populations composed
of migrant and seasonal farm workers, the homeless, and residents of public housing. Health
centers funded by HRSA are community-based and patient-directed organizations meeting the
definition of “health center” under 42 U.S.C. § 254(b).

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, including $2 billion to expand the
Health Center Program to serve more patients, stimulate new jobs, and meet the significant
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. These appropriations included $500 million for grants to health
centers, $1.5 billion for health center construction, renovation, and equipment and for the
acquisition of health information technology systems, and $500 million to address health
professions workforce shortages. HRSA made available four types of Recovery Act grants to
health centers: new access points (NAP), increased demand for services (IDS), facilities
investment program, and capital improvement program (CIP). Recovery Act grants were
provided to both new and existing health centers; moreover, a center was permitted to receive
more than one type of grant.

Center for Health and Wellness, Inc.

The Center for Health and Wellness, Inc. (CHW) began operations in July 1998 as a primary
care facility specifically designed to meet the needs of the northeast Wichita, Kansas,
community. CHW serves a large number of uninsured and underinsured families and operates
programs in several areas such as hypertension, diabetes, cancer awareness, substance abuse,
anger management, prenatal care, and dental health services.

On December 16, 2007, CHW applied for NAP grant funding in the amount of $1.95 million
(cumulative over a three-year period) to expand health care services. According to CHW’s NAP
grant application, the funding would enable CHW to add three additional medical providers, add
six new exam rooms, expand the prenatal clinic, expand the behavioral health program, and



                                               1
expand its oral health services. On August 20, 2009, HRSA awarded CHW a Recovery Act
NAP grant in the amount of $1.3 million.

On March 16, 2009, CHW applied for Recovery Act IDS grant funding in the amount of
$100,000 to expand existing services. According to CHW’s IDS grant application, the funding
would also enable CHW to hire a dental hygienist for one day each week and to provide
additional staff members for billing and human resources to maintain administrative controls.
On March 27, 2009, HRSA awarded CHW an IDS grant in the amount of $100,000. On
September 18, 2009, HRSA awarded CHW an additional $1,000 due to a formula revision that
increased the base allocation to $101,000.

On June 3, 2009, CHW applied for Recovery Act CIP grant funding in the amount of $250,000
for construction of the facility expansion. On June 25, 2009, HRSA awarded CHW a CIP grant
in the amount of $250,000.

Requirements for Federal Grantees

Nonprofit organizations that receive HRSA funds must comply with Federal cost principles
found at 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (formerly Office of
Management and Budget (OMB) Circular A-122). In addition, 42 U.S.C. § 254(b) defines
requirements for health centers under the Health Center Program.

The Standards for Financial Management Systems, found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must ensure that
accounting records are supported by source documentation (§ 74.21(b)(7)); and must provide
effective control over and accountability for all funds, property, and other assets so that
recipients adequately safeguard all such assets and assure they are used solely for authorized
purposes (§ 74.21(b)(3)). Grantees also must have written procedures for determining the
reasonableness, allocability and allowability of costs in accordance with the provisions of the
applicable Federal cost principles and the terms and conditions of the award (§ 74.21(b)(6)).

In addition, grantees must establish written procurement procedures that include certain
provisions as set forth in 45 CFR § 74.44. Federal regulations also require grantees to deposit
and maintain advances of Federal funds in insured accounts whenever possible (45 CFR
§ 74.22(i)(2)).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess CHW’s financial viability, capacity to manage and account for
Federal funds, and capability to operate a community health center in accordance with Federal
regulations.



                                                2
Scope

We conducted a limited review of CHW’s financial viability, financial management system, and
related policies and procedures. Therefore, we did not perform an overall assessment of CHW’s
internal control structure. Rather, we performed limited tests and other auditing procedures on
CHW’s financial management system to assess its ability to administer federally funded projects.

We performed our fieldwork at CHW’s administrative office in Wichita, Kansas, during
April 2010.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance, to include HRSA program and
        policy announcements;

   •    obtained and reviewed CHW’s HRSA grant application packages and supporting
        documentation;

   •    interviewed CHW personnel to gain an understanding of its accounting systems and
        internal controls;

   •    reviewed CHW’s fiscal procedures related to accounting documentation and preparation
        of financial reports;

   •    reviewed CHW’s financial statements for fiscal years (FY) 2007 through 2008;

   •    reviewed CHW’s IRS Forms 990 and supporting documentation for FY 2008;

   •    performed ratio analyses of CHW’s financial statements for FYs 2007 through 2008;

   •    reviewed CHW’s independent audits for FYs 2007 through 2008;

   •    reviewed CHW’s by-laws;

   •    reviewed minutes from CHW’s Board of Director meetings; and

   •    discussed the results of our review with CHW officials on June 3, 2010.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                                                3
                           FINDINGS AND RECOMMENDATION

Based on our assessment, we believe CHW is financially viable, has the capacity to manage and
account for Federal funds, and is capable of operating its health center in accordance with
Federal regulations. However, we identified several weaknesses in CHW’s financial
management: lack of written cash management policies and procedures, to include policies and
procedures for adherence to Federal Deposit Insurance Corporation (FDIC) limits; lack of
policies and procedures governing reporting requirements mandated by the Recovery Act;
inadequate segregation of duties; and lack of adherence to inventory policies and procedures.

WEAKNESSES IN FINANCIAL MANAGEMENT

Lack of Written Cash Management Policies and Procedures

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability for all funds, property, and other assets so that
recipients adequately safeguard all such assets and assure they are used solely for authorized
purposes. Pursuant to 45 CFR § 74.21(b)(6), grantees must have written procedures for
determining the reasonableness, allocability and allowability of costs in accordance with the
provisions of the applicable Federal cost principles and the terms and conditions of the Federal
grant award.

Pursuant to 45 CFR § 74.22(i)(2), grantees are required to deposit and maintain advances of
Federal funds in insured accounts whenever possible. Further, FDIC policy states that deposits
owned by a corporation, partnership, or unincorporated association are insured up to $250,000 at
a single bank.

CHW did not have written policies and procedures to ensure the reasonableness, allocability and
allowability of costs in accordance with applicable cost principles. Funds that are not correctly
allocated—for example, funds used for such expenses as gifts or luncheons—may encourage
unacceptable use of Federal grant and contract funds.

Further, CHW did not have written cash management policies and procedures to ensure that cash
balances did not exceed federally insured limits. Although CHW did not maintain bank balances
that exceeded the $250,000 federally insured limit, the lack of written cash management policies
and procedures regarding adherence to FDIC limits creates an increased risk that the grantee’s
funds could exceed those limits and, in turn, be subject to an increased risk of loss in the event of
a bank failure.




                                                  4
Lack of Policies and Procedures Governing Reporting Requirements
Mandated by the American Recovery and Reinvestment Act of 2009

Pursuant to section 1512(c) of the Recovery Act:

       Not later than 10 days after the end of each calendar quarter, each recipient that
       received recovery funds from a Federal agency shall submit a report to that
       agency that contains—

               (1) the total amount of recovery funds received from that agency;

               (2) the amount of recovery funds received that were expended or obligated
                   to projects or activities; and

               (3) a detailed list of all projects or activities for which recovery funds
                   were expended or obligated ….

CHW did not have policies and procedures to address the specific reporting requirements of the
Recovery Act. This could lead to less transparency as grantees that do not fulfill these reporting
requirements could create the risk that the public does not have access to information on the
manner in which Recovery Act funds are being expended.

Inadequate Segregation of Duties

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability for all funds, property, and other assets so that
recipients adequately safeguard all such assets and assure they are used solely for authorized
purposes. In addition, pursuant to 42 USC § 254b(l)(3)(D) and 45 CFR §§ 74.14, 74.21, and
74.26, a health center must maintain separate functions appropriate to organizational size to
safeguard assets and maintain financial stability.

CHW did not adequately segregate financial management duties in the following high-risk areas:

   •   Cash Disbursements: The Chief Financial Officer had access to perform both the
       authorization and the recording duties related to cash disbursements. These duties should
       be performed by separate individuals to ensure the integrity of the cash disbursements
       function.

   •   Check Stock: The supply of unused blank checks was under the control of the
       accountant, who also prepared the checks for payment. These duties should be
       performed by separate individuals to ensure the integrity and safeguarding of check
       stock.

   •   Payroll: Payroll functions were not segregated among timekeeping, payroll preparation,
       and payroll distribution. These duties should be performed by separate individuals to
       ensure the integrity of the payroll function.


                                                  5
Inadequate segregation of duties could result in delay or inability to detect accounting
inaccuracies and/or misappropriation of assets by theft or fraud.

Lack of Adherence to Inventory Policies and Procedures

Pursuant to 45 CFR § 74.21(b)(3), grantees’ financial management systems must provide
effective control over and accountability for all funds, property, and other assets so that
recipients adequately safeguard all such assets and assure they are used solely for authorized
purposes. In addition, 45 CFR §§ 74.34(f)(3) and 74.44(a) require grantees to maintain inventory
control systems and take periodic physical inventory of grant-related equipment and to establish
written procurement procedures.

CHW’s Policy and Procedure Manual, chapter (VI)(B), states:

   1. CHW will maintain a master inventory database.

   2. Included in the master inventory database will be the item’s name, description,
      date of purchase, vendor, value at time of purchase, county identification number
      if assigned, and funding sources. The funding sources are as follows: Private
      Foundation, Taxes, Fees and Grants – Federal/State.

   3. Master inventory items will be divided into the following categories:

           a.   Office equipment
           b.   Furniture
           c.   Medical Equipment
           d.   Building/Improvements/Fixtures

In addition, CHW’s Policy and Procedure Manual, chapter (IV)(P)(4), states:

       CHW will develop and implement property management standards for equipment
       acquired with federal funds (or federally-owned equipment), including:

           a. Development and maintenance of equipment records that include a
              description of the equipment, the manufacturer’s serial number (or similar
              means of identification), the source of the equipment, whether title vests in
              CHW or DHHS [U.S. Department of Health & Human Services], the
              acquisition date, information to calculate the federal share, location and
              condition of the equipment, unit cost, and disposition data.

           b. Identification of equipment owned by DHHS as such.

           c. Annually, an inventory of the equipment and reconciliation of the
              inventory results with the equipment records.




                                                 6
           d. Maintenance of a system to ensure adequate safeguards against loss,
              damage, or theft.

           e. Procedures to ensure adequate physical maintenance of the equipment (to
              keep it in good working condition).

           f. Sales procedures which provide for competition, to the extent possible.

CHW did not follow its policies and procedures because it did not maintain a master inventory
database; nor did it develop and implement property management standards. CHW used its
depreciation report as its master inventory database. The CHW depreciation report did not
include required items as stated in the CHW Policy and Procedure Manual, such as identification
of vendor and funding sources. Additionally, CHW did not develop and maintain equipment
records that included the manufacturer’s serial number (or similar means of identification),
explanation of whether title for particular items vested in CHW or in HHS, information to
calculate the Federal share, location and condition of the equipment, and disposition data.

Furthermore, CHW did not provide any evidence that it had performed a reconciliation of the
inventory on an annual basis. Nonperformance of inventory counts could cause a delay or
inability to detect misappropriation of assets by theft or fraud.

RECOMMENDATION

When monitoring the Recovery Act funds, we recommend that HRSA consider the information
presented in this report in assessing CHW’s ability to account for and manage Federal funds and
to operate a community health center in accordance with Federal regulations.

AUDITEE COMMENTS

In written comments to our draft report, CHW concurred with our findings and recommendation.
CHW’s comments appear in their entirety as the appendix.




                                               7
APPENDIX
                             Page 1 of 2


APPENDIX: AUDITEE COMMENTS
Page 2 of 2
